No. 20-1643
IN THE

Supreme Court of the United States
ARTHUR BAISLEY,
Petitioner,
v.
INTERNATIONAL ASSOCIATION OF MACHINISTS AND
AEROSPACE WORKERS, AFL-CIO,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF SERVICE
I, Elizabeth A. Roma, a member of the bar of this Court, certify that on the
26th day of July, 2021, one copy of the Brief in Opposition to the Petition for Writ of
Certiorari filed in the above-captioned case was sent by United States Postal Service
Overnight Mail Delivery to the Supreme Court of the United States. I further certify
than an electronic copy was sent by email to the party listed below who consented to
electronic service:

FRANK D. GARRISON IV
Counsel of Record
NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUNDATION, INC.
8001 Braddock Road, Suite 600
Springfield, VA 422160
(703) 321-8510
fdg@nrtw.org
Counsel for Petitioner

I further certify that all parties required to be served have been served.
Executed on July 26, 2021.

/s/ Elizabeth A. Roma
ELIZABETH A. ROMA
Counsel of Record
GUERRIERI, BARTOS & ROMA, PC
1900 M Street, NW, Suite 700
Washington, DC 20036
(202) 624-7400
eroma@geclaw.com
Counsel for Respondent

